                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL

                                                             EXPORT-IMPORT BANK

                                                              of the UNITED STATES





     FOLLOW-UP OF AUDIT RECOMMENDATIONS

                  REPORTED IN

     MEDIUM TERM EXPORT CREDIT PROGRAM ­
      CREDIT AND FRAUD RISK MANAGEMENT

         BUSINESS PROCESS IMPROVEMENT





                                                                       Evaluation Report
                                                                            July 7, 2010
                                                                          OIG-EV-10-02
        Office of Inspector General         Export-Import Bank
                                            of the United States
July 7, 2010

MEMORANDUM

TO: 	                   John McAdams, Senior Vice President, Export Finance
                        Kenneth Tinsley, Senior Vice President, Credit and Risk Management
                        John Simonson, Senior Vice President and Chief Financial Officer
                        Fernanda Young, Chief Information Officer

FROM:                    Jean Smith
                         Assistant Inspector General for Audit

SUBJECT: 	             Audit recommendations reported in Medium Term Export Credit Program –
                       Credit and Fraud Risk Management and Business Process Improvement
                       (March 30, 2009, OIG-AR-09-04)

This memorandum transmits Evaluation Report OIG-EV-10-02, Follow-Up of Audit Recommendations
Reported in Medium Term Export Credit Program – Credit and Fraud Risk Management and Business
Process Improvement. The Office of Inspector contracted with Protiviti to evaluate management's
progress in implementing recommendations contained in the subject audit. The specific objective was
to determine whether the Export-Import Bank of the United States (Ex-Im Bank or the Bank)
implemented actions to correct deficiencies in business processes to administer the Medium Term (MT)
Program.

The evaluation found that Ex-Im Bank addressed many of the deficiencies. Although the specific
recommendations may not have been implemented fully, the Bank has taken the necessary actions to
establish appropriate controls in most of the areas that needed strengthening. Based on these actions,
we closed four of eight recommendations reported in OIG-AR-09-04. The Chief Operations Officer
stated in a formal response that the Bank plans to address the remaining open recommendations in the
current fiscal year ending September 30, 2010.

We made one suggestion to document and formalize a risk-based approach that provides specific
parameters for use of enhanced credit and due diligence procedures.

We appreciate the courtesies and cooperation provided to the auditors during the evaluation. If you
have any questions, please call me at (202) 565-3944.

cc: 	       Alice Albright, Senior Vice President, Chief Operations Officer
            Michael Cushing, Senior Vice President, Resource Management
            Jeffrey Abramson, Vice President, Trade Finance and Insurance
            Walter Hill, Vice President, Credit Review and Compliance
            Michele Kuester, Vice President, Operations and Data Quality
            David Carter, Vice President, Credit Underwriting



                      811 Vermont Avenue, N.W. Washington, D.C. 20571
Export-Import Bank of the United States 

Follow-Up of Audit Recommendations Reported In
Medium Term Export Credit Program – Credit and
Fraud Risk Management and Business Process
Improvement (March 30, 2009, OIG-AR-09-04)




This report is intended for the use of management, the Board of Directors and Office of Inspector General of the Export-Import Bank of the United States.
This report provides management with information about the condition or risks and internal controls at one point in time. Future changes in environmental
factors and actions by personnel may significantly and adversely impact these risks and controls in ways that this report did not and cannot anticipate.
Executive Summary 

The Office of Inspector General contracted with Protiviti to conducted an evaluation on
recommendations made in audit report Medium Term Export Credit Program – Credit and Fraud
Risk Management and Business Process Improvement (March 30, 2009, OIG-AR-09-04). The
specific audit objective was to determine whether Export-Import Bank of the United States (Ex-Im
Bank) implemented actions to correct deficiencies in the design of business processes utilized by
management to process and administer the Medium Term (MT) Program. Having strong controls in
this program is critical to prevent fraud and to serve the United States exporters.

Our evaluation found that Ex-Im Bank has made significant progress in addressing the findings and
recommendations previously noted in our report. Ex-Im Bank enhanced credit underwriting due-
diligence requirements using a risk-based approach; improved default and performance reporting
capabilities through technology improvements in Ex-Im Online and Ex-Im Reporting System; and
established the Credit Review and Compliance Division, which serves in a valuable quality
assurance and oversight role. Even in those instances where the Bank expressed disagreement
with our original finding and recommendation, specific action was taken to strengthen the Bank’s MT
Program processes and controls. Overall, four of eight recommendations remained open. Appendix
A presents a summary of the audit recommendations reported in OIG-AR-09-04 and the status of
each recommendation based on our evaluation.

Although we determined Ex-Im Bank has taken several positive steps to enhance the credit
underwriting due-diligence processes over MT transactions, we are making one suggestion
management may consider implementing to further strengthen the MT Program. We are suggesting
that the Senior Vice Presidents of Export Finance and Credit and Risk Management document and
formalize a risk-based approach that provides specific parameters for use of enhanced credit and
due diligence procedures.

A summary of recommendations that we determined were open is presented below.

The Bank has yet to develop a strategic plan for the MT Program or adjust the exposure fee pricing
structure for non-sovereign transactions. However, we note that marked progress has been made in
both of these areas. A Bank-wide strategic plan is estimated to be completed in July 2010 and the
Bank is considering making enhancements to its exposure fee pricing framework at the beginning of
the next fiscal year in October 2010.

Ex-Im Bank has instituted a work cell pilot and triage process to reduce transaction processing cycle
times. However, reducing processing time continues to be a challenge for the MT Program. In our
view, the Bank’s willingness to process incomplete transactions remains the root cause.

Finally, while the Bank’s lender analysis framework and rating model provides a much needed
foundation for addressing credit and fraud risks in MT transactions, the frequency at which the
lender analysis and ratings are periodically reviewed and updated has not yet been determined.

The Chief Operations Officer stated that the Bank plans to address the remaining open
recommendations in the current fiscal year ending September 30, 2010.




                                                                                                  i
Table of Contents 

                                                                    Page
    Executive Summary                                                 i



    Background and Objective                                         1



    Scope and Methodology                                            3



    Findings Follow-Up and Suggestions                               4


    Section 1: Credit and Fraud Risk Management                      4


      Finding 1 – Insufficient Credit Underwriting Due-Diligence     4

                  Requirements and Processes 

                       Suggestion 1                                  4

      Finding 2 – Lack of Early Warning/Delinquency and              5

                  Performance Reporting Capabilities 

      Finding 3 – Insufficient Lender Oversight and Quality          5

                  Assurance Control Activities 


    Section 2: Export Credit Program Design                          7


      Finding 4 – Insufficient Exposure Fee Pricing Structure for    7

                  Non-Sovereign Transactions 

      Finding 5 – Consequences of 100% Guarantee for Non-            7

                  Sovereign Transactions 

      Finding 6 – Processing Time Inefficiencies: Definition of a    8

                  Complete Application

      Finding 7 – Lack of Strategy and Vision for the Medium         8

                  Term Program 


    Appendix A – Results of follow-up testing of audit               10 

    recommendations reported in Medium Term Export Credit 

    Program – Credit and Fraud Risk Management and Business 

    Process Improvement (March 30, 2009, OIG-AR-09-04). 


    Appendix B – Management Comment                                  12 

Background and Objective 


Background   The Export-Import Bank of the United States (“Ex-Im Bank” or the “Bank”) is the
             official export credit agency (“ECA”) of the United States (U.S.). Ex-Im Bank
             supports the financing of U.S. goods and services in international markets, turning
             export opportunities into actual sales that help U.S. companies of all sizes to
             create and maintain jobs in the U.S. Ex-Im Bank assumes the credit and country
             risks that the private sector is unable or unwilling to accept. Ex-Im Bank also helps
             U.S. exporters remain competitive by countering the export financing provided by
             foreign governments on behalf of foreign companies. At the same time, the Bank
             must safeguard taxpayer resources by determining that there is a reasonable
             likelihood of repayment with respect to each of its transactions.

             Ex-Im Bank offers short term (“ST”), medium term (“MT”) and long term (“LT”)
             export credit financing products. The core MT products offered by Ex-Im Bank are
             as follows:

             MT Loan Guarantees: Ex-Im Bank loan guarantees cover the repayment risks on
             the foreign buyer’s debt obligations incurred to purchase U.S. exports. Ex-Im Bank
             guarantees to a lender that, in the event of a payment default by the borrower, the
             Bank will pay to the lender the outstanding principal and interest on the loan. Ex-Im
             Bank’s comprehensive guarantee covers 100 percent of the commercial and
             political risks for up to 85 percent of the U.S. contract value of the export
             transaction. Guarantees extended under the MT Program typically have repayment
             terms of one to seven years and range in amount from $100 thousand or less to $10
             million.

             MT Export Credit Insurance: Ex-Im Bank credit insurance helps U.S. exporters
             develop and expand their overseas sales by protecting them against loss should a
             foreign buyer or other foreign debtor default for political or commercial reasons.
             Similar to the loan guarantee product, Ex-Im Bank covers 100 percent of the
             commercial and political risks for up to 85 percent of the U.S. contract value of the
             export transaction. Credits insured under the MT Program typically have
             repayment terms of one to seven years ranging from $100 thousand or less to $10
             million.

             Direct Loans: Ex-Im Bank’s direct loan program is a foreign buyer credit program
             in which Ex-Im Bank makes a loan to a foreign buyer to purchase U.S. exports.
             Loan disbursements go directly to the U.S. exporter as the export products are
             shipped to the foreign buyer.

             MT Program - Performance Results

             The MT Program has significantly underperformed the ST and LT programs in
             recent years, accounting for a disproportionate share of Ex-Im Bank’s credit losses.
             In terms of origination volume (authorizations), the MT Program is much smaller
             than the ST and LT Programs – representing $552 million in fiscal year (“FY”)
             2009, or 2.6% of the Bank’s total authorizations of $21.0 billion. Conversely, in
             terms of claims volume (net claims as a percentage of disbursements), the MT



                                                                                              1
Background and Objective 

                     Program has experienced much higher losses than the Bank’s other programs.
                     (See Table 1 for a detailed breakout of MT Program authorizations, disbursements,
                     claims and recoveries by year for the period FYs 2004 to 2009).


       Table 1: Total Authorizations & Claims – Breaking Out MT ($ in millions) – FY2004 to FY2009




This table compares the relative amounts of MT Program authorizations, disbursements, claims paid and recoveries to the
comparable data for all other Ex-Im Bank transactions for FYs 2004 to 2009 as of March 31, 2010. It also indicates the
amount of claims paid with respect to each year's disbursed loans as a percentage of the total amount of disbursed loans
for that year, both gross and net of recoveries, and indicates the amount recovered by Ex-Im Bank on defaulted loans and
as a percentage of the claims paid with respect to that year.

** Claims and recovery data in the most recent fiscal years are not fully seasoned and thus not as meaningful. The lag
time between the dates a transaction is authorized and funded can extend to more than 12 months. Also, defaults and
resulting claim payments typically do not occur for another 12 to 36 months.



Objective 	          The specific objective of this evaluation was to determine whether Ex-Im Bank
                     implemented actions to correct the identified weaknesses reported in audit report
                     Medium Term Export Credit Program – Credit and Fraud Risk Management and
                     Business Process Improvement (March 30, 2009, OIG-AR-09-04).




                                                                                                                     2
Scope and Methodology 

     The scope of the evaluation focused on the business processes supporting Ex-Im
     Bank’s MT Program. Fieldwork was conducted on-site at Ex-Im Bank’s headquarters
     in Washington, DC in April 2010.

     Interviews were held with key personnel in order to evaluate management’s progress
     in addressing audit findings and implementing recommendations contained in
     performance audit report “Medium Term Export Credit Program – Credit and Fraud
     Risk Management and Business Process Improvement” (March 30, 2009, OIG-AR-
     09-04). Specifically, we met with representatives from the following Divisions of the
     Bank: Credit Review and Compliance (CRC), Operations and Data Quality, Trade
     Finance and Insurance (TFI), Credit and Risk Management, and Office of the Chief
     Information Officer (OCIO).

     We also reviewed documentation that supported management’s progress in
     implementing corrective actions. Detailed testing of MT transactions was not
     conducted as part of the evaluation.

     We performed this evaluation because historically the MT Program has significantly
     underperformed the ST and LT Programs. Having strong controls in this program is
     critical to prevent fraud and serve U.S. exporters.




                                                                                      3
Findings Follow-Up and Suggestions 

The below finding titles are a repeat of titles presented in Medium Term Export Credit Program –
Credit and Fraud Risk Management and Business Process Improvement (March 30, 2009, OIG-AR-
09-04) and are not intended to convey a present deficiency. Use of these titles is to report on the
status of recommendations presented in OIG-AR-09-04.

Section 1: Credit and Fraud Risk Management
Finding 1              Insufficient Credit Underwriting Due-Diligence Requirements and Processes

                       Ex-Im Bank has taken several positive steps to enhance the credit underwriting
                       due-diligence processes over MT transactions. Although Ex-Im Bank disagreed
                       with our recommendation to apply due diligence enhancements on a
                       programmatic basis, including requiring on-site inspections and appraisals of
                       equipment being exported, Ex-Im Bank has begun applying credit
                       enhancements with greater frequency on a case-by-case basis. From January
                       through March of 2010, 17 of the 32 MT transactions considered and approved
                       by the Bank’s Credit Committee included 1 or more credit enhancements. 1 The
                       most common being liens on equipment financed under the transactions.

                       Additionally, the Bank is also contemplating requiring enhanced due-diligence
                       procedures on all third-tier lenders as measured by the Bank’s lender rating
                       model (see Finding 3 for more detailed discussion on lender ratings). These
                       required due-diligence procedures may include one or more of the following:

                           	 Using the MT insurance product, as opposed to the MT guarantee
                              product. The MT insurance product provides conditional rather than
                              unqualified coverage. Claims must be accompanied by proof of
                              compliance with the insurance policy requirements.
                           	 Obtaining formal compliance agreements with those lenders that have
                              displayed weaknesses in underwriting participants and/or preparing
                              adequate application packages.
                            Obtaining risk sharing of at least 5% on MT Program transactions.
                            Requiring payments on a quarterly basis as opposed to a semi-annual
                              basis.
                            Obtaining bank/brokerage statements on foreign buyers and/or
                              guarantors.

                       Based on the above actions, we determined that management has satisfied
                       recommendation 1 by implementing adequate action to strengthen the due-
                       diligence process. However, since the forms of credit enhancements and due
                       diligence procedures described above are used on a case-by-case basis,
                       management should take action to ensure they are properly and adequately
                       applied.

Suggestion 1           The Senior Vice Presidents of Export Finance and Credit and Risk Management
                       should document and formalize a risk-based approach that provides specific

1
 Forms of credit enhancements include liens on equipment financed, dividend restrictions, subordination of
debt, bank guarantees, additional corporate guarantees, and assignment of lease receivables.


                                                                                                        4
Findings Follow-Up and Suggestions 

            parameters for use of enhanced credit and due diligence procedures.

Finding 2   Lack of Early Warning/Delinquency and Performance Reporting Capabilities

            Ex-Im Bank has identified and implemented actions to enhance the delinquency
            and performance reporting capabilities supporting the MT Program. Specifically,
            the Ex-Im Online (EOL) system has been enhanced to include overdue
            reporting of MT transactions. This functionality includes email notifications sent
            to Bank staff. Also, the Ex-Im Reporting System (ERS) has been implemented
            and provides critical metrics and detailed customized reporting for use by the
            MT Program staff.

            We note that Ex-Im Bank disagreed with our recommendation to increase the
            payment frequency for MT transactions on a programmatic basis from semi-
            annual to monthly or quarterly. However, as noted in Finding 1, the Bank will be
            considering requiring more frequent payments as part of its enhanced credit
            and due diligence procedures.

            Additionally, the Portfolio Monitoring and Control Group (PMCG), established in
            late 2009, monitors performance of Bank transactions with exposures of less
            than $15 million and produces quarterly reports on the Bank’s portfolio, which
            includes MT Program transactions. PMCG’s primary functions include:

                   Monitoring compliance with transaction terms and conditions as
                    established by Ex-Im Bank approval and lender credit arrangements.
                   Performing periodic risk profile reviews.
                   Tracking repayment performance and recovery rate.
                   Providing frequent structured feedback to originating and underwriting
                    divisions.

            Based on the above actions, we determined that management has implemented
            adequate action to satisfy recommendation 2.

Finding 3   Insufficient Lender Oversight and Quality Assurance Control Activities

            Lender Oversight

            The lender analysis framework, piloted in 2008, has now been expanded to
            cover all active medium-term lenders. This framework includes a lender rating
            model that is used to segregate lenders into three tiers based on past
            performance and other factors. New transactions from lenders with the lowest
            ratings, tier 3, receive greater scrutiny and are held to more stringent due
            diligence standards. The process is led by Trade Finance & Insurance (TFI),
            the division charged with day-to-day transactional responsibilities, with oversight
            by the Credit Review and Compliance (CRC) Division. Additionally, an
            automated data report for the lender rating model is in the process of being built
            in ERS.

            While substantive progress has been made, a periodic review and updating of



                                                                                         5
Findings Follow-Up and Suggestions 

       the lender rating framework and CRC’s oversight role in this process needs to
       be clearly defined and formalized. We note that management’s response to
       OIG-AR-09-04 stated that the Bank “anticipates conducting quarterly updates to
       the lender analyses and annual reviews of lender ratings.” To date, these
       processes and controls have not yet been put in place. Since each lender’s
       performance history is used in determining the rating, the lender scorecard is at
       risk of becoming stale if not updated regularly.

       Based on the above, recommendation 3A remains open.

       Management Response

       By the end of FY2010, the Bank will finalize an approach to regularizing the
       lender oversight function and, in particular the lender rating process, to include
       defining the role of the Credit Review and Compliance Division in this process.


       Quality Assurance

       CRC, established in 2008, serves as Ex-Im Bank’s quality assurance function.
       Responsibilities of CRC include the periodic review of MT internal and external
       delegated authority, which includes monitoring and following up on identified
       issues. CRC also oversees compliance with the bank-wide Character,
       Reputation and Transaction Integrity (CRTI) process, which describes the
       Bank’s policies, procedures and response to suspect participants. The CRTI
       process involves reviewing all parties in the transaction by checking prohibited
       or restricted parties lists maintained by the U.S. government and certain foreign
       governments and multilateral organizations. Finally, CRC is responsible for
       fraud detection and mitigation efforts through its focus on a "trust but verify"
       model. Through this model, CRC directly contacts exporters/suppliers and
       shipping companies on transactions and transaction participants of concern to
       ascertain whether or not the transactions actually occurred as purported. CRC
       also works in close coordination with the Office of General Counsel and the
       Office of Inspector General’s Office of Investigations to further investigate
       issues uncovered.

       CRC has developed an annual CRC Compliance Review Schedule that
       includes the internal and external delegated authority that CRC plans to review
       for the year. CRC may revise this schedule to focus on its fraud detection &
       mitigation efforts as issues warrant.

       We determined that management has implemented adequate action to satisfy
       recommendation 3B based on the above actions.




                                                                                     6
Findings Follow-Up and Suggestions 

Section 2: Export Credit Program Design
Finding 4     Insufficient Exposure Fee Pricing Structure for Non-Sovereign Transactions

              Ex-Im Bank’s exposure fee pricing structure continues to be based on the
              minimum country-specific risk fees established by the Organisation for
              Economic Cooperation and Development (OECD). As the Bank was performing
              an internal analysis to develop methods for adjusting its exposure fee pricing,
              the OECD released in February 2010 a new pricing framework for
              implementation in 2011. The Bank has analyzed the new OECD guidelines and
              is contemplating making enhancements to its exposure fee pricing framework at
              the beginning of the next fiscal year in October 2010. In the interim, the Bank
              has increased its default pricing and reserve allocation for non-sovereign MT
              transactions in Mexico to more adequately address the higher risk as evidenced
              by past performance.

              Based on the above, the finding and recommendation 4 remains open.

              Management Response

              The Bank anticipates implementing a new pricing methodology, beginning in
              FY2011 and in accordance with the agreed OECD guidelines, which will more
              appropriately "price-to-risk" medium-term transactions.

Finding 5
              Consequences of 100% Guarantee for Non-Sovereign Transactions

              Ex-Im Bank has made a business decision not to reduce MT coverage below
              100%. However, the Bank has taken several positive steps to strengthen
              controls to address the risks associated with the MT Program, including:

                  	 Establishing enhanced credit underwriting due-diligence measures (see
                     Finding 1) including requiring various forms of credit enhancement and
                     loss sharing for poor performing lenders.
                  	 Continuing to develop the MT Delegated Authority Program (MTDAP)
                     which requires risk retention on the part of the lender. Transactions
                     have been executed under MTDAP since January 2009.

              We also note that MT Program authorizations as a percentage of total
              authorizations across all of the Bank’s programs have declined from 6.4% in
              FY2007 and FY2008 to just 2.6% in FY2009. Ex-Im Bank has asserted that
              lowering MT coverage below 100% would further diminish the already reduced
              demand for the MT Program.

              Based on the above, we determined that management has implemented
              adequate action to satisfy recommendation 5.




                                                                                       7
Findings Follow-Up and Suggestions 

Finding 6   Processing Time Inefficiencies: Definition of a Complete Application

            Management has initiated several actions – triage and work cell – with the
            objective of reducing transaction processing times (also referred to as “cycle
            times”). Recently, the Bank began conducting weekly triage meetings of newly
            submitted transactions to proactively identify and resolve issues that may
            impact the Bank’s ability to timely process each transaction. Members of TFI,
            Credit Underwriting (CU) and CRC attend these meetings. Because this
            process is in its infancy and results were unavailable, we are not able to
            determine whether triaging newly submitted transactions will eliminate
            processing time inefficiencies.

            For the work cell, Ex-Im Bank began this pilot in January 2010 and assigned
            specific members of TFI and CU to work together to process MT Program
            transactions for a six month period. A primary goal of the work cell pilot was to
            reduce cycle times. While the pilot is still ongoing, the preliminary results
            suggest an overall increase in productivity measured by total number of
            transactions fully processed by the work cell. However, there was no
            measurable impact on reducing transaction cycle times.

            We believe that the early results of the work cell pilot further reinforce that the
            Bank’s decision to process incomplete applications remains the root cause of
            the high MT program cycle times. As we noted in the original finding, there is a
            need to increase the number of required fields on the application for participants
            to submit an application. To date, Ex-Im Bank has been unwilling to increase
            the number of required fields on the application because management is
            concerned it would discourage participants from submitting applications.

            Based on the above, recommendation 6 remains open.

            Management Response

            The Bank will execute in July an organizational re-alignment that will further
            enhance and systematize the operational changes that have yielded material
            improvement in the processing time for medium-term transactions.


Finding 7   Lack of Strategy and Vision for the Medium Term Program

            The MT Program has not had a strategic plan because the Bank-wide strategic
            plan has not been finalized. However, prior to our follow-up review, the Ex-Im
            Bank Chairman started a Strategic Planning initiative in which a high level
            Bank-wide strategic plan had been drafted and circulated for senior
            management review and comment. The Bank-wide strategic plan provides a
            framework for an MT Program strategic plan. Management estimated that the
            Bank-wide strategic plan will be finalized in July 2010.

            Based on the above, recommendation 7 remains open.




                                                                                         8
Findings Follow-Up and Suggestions 

       Management Response

       Trade Finance Division will publish a Medium-term Strategic Plan no later than
       the end of FY2010.




                                                                                 9
Appendix A 

The documentation below provides the results of the follow-up evaluation of audit recommendations 

reported in Medium Term Export Credit Program – Credit and Fraud Risk Management and 

Business Process Improvement (March 30, 2009, OIG-AR-09-04). We determined that Ex-Im 

adequately addressed and closed four of eight recommendations noted below. 


 Finding – Insufficient Credit Underwriting Due-Diligence Requirements and Processes
 Recommendation 1.                                                      Closed
  Require as part of credit underwriting due-diligence on-site
   inspections and appraisals of the equipment being exported
   as well as bank/brokerage statements of obligors and
   guarantors for MT transactions.
  Develop a process to manage the quality of appraisers and
   appraisals received.

 Finding – Lack of Early Warning/Delinquency and Performance Reporting Capabilities
 Recommendation 2.                                                   Closed
  Institute a defined and standardized process for lenders to
   report payment history.
  As enhancements are made to Ex-Im Bank’s technology
   infrastructure, significant priority should be given to the end-
   to-end build out of performance reporting capabilities.
  Strong consideration should be given to hiring a quantitative
   analyst with experience in the design and implementation of
   pricing, risk management and credit analysis tools and
   models to lead that effort.
  Payment frequency for MT transactions should be
   consistent with local country norms.

 Finding – Insufficient Lender Oversight and Quality Assurance Control Activities
 Recommendation 3A.                                                      Open
  Institute a formal lender oversight function to actively
   manage and monitor performance of transactions on a
   lender-by-lender basis and to assess the quality of lender
   due-diligence performed on a periodic basis, quarterly at a
   minimum.
  The lender oversight function should report into a division
   independent of front-office originations such as Credit
   Review and Compliance.

 Recommendation 3B.                                                          Closed
  Establish a quality assurance function for the MT program
   responsible for managing and monitoring performance of
   transaction participants.
  Manage the process of performing periodic MT export credit
   transaction file reviews on a sub-sample of transactions.




                                                                                             10 

Appendix A 

Finding – Insufficient Exposure Fee Pricing Structure for Non-Sovereign Transactions
Recommendation 4.                                                        Open
 Revamp exposure fee pricing structure for non-sovereign
  MT program transactions to more effectively account for
  transaction-level risk.
 Consider establishing minimum, base exposure fees for
  non-sovereign MT transactions that are at a premium to the
  OECD floor pricing that the Bank utilizes for its exposure fee
  pricing of sovereign transactions.

Finding – Consequences of 100% Guarantee for Non-Sovereign Transactions
Recommendation 5.                                                  Closed
 Evaluate the impact of implementing a greater degree of
  risk sharing or other incentives for non-sovereign
  transactions to reduce the moral hazard currently
  associated with the MT program.

Finding – Processing Time Inefficiencies: Definition of a Complete Application
Recommendation 6.                                                        Open
 Develop a definition of a complete application by defining
  documentation requirements at initial application.
 Consider creating dedicated teams in TFI and CU that
  would be responsible for processing transactions from first-
  time lenders as well as those transactions considered highly
  complex or risky.

Finding – Lack of Strategy and Vision for the Medium Term Program
Recommendation 7.                                                       Open
 Develop and document a strategic plan for the MT program
  (even if one is not documented for Ex-Im Bank as a whole)
  identifying the major goals of the MT program over the next
  3 to 5 years and the strategies that management will deploy
  to achieve the goals, including the use of technology and
  targets for key performance measures.




                                                                                       11
Appendix B 





          MANAGEMENT RESPONSE

          TO EVALUATION REPORT





                                  12 

                                    EXPORT-IMPORT BANK
                                         OF nm UNITED STATES


July2,20 10


Ms. Jean Smith
Assistant Inspector General for Audit
Office ofInspector General
Export-Import Bank of the United Slales

Ref: Status Update - Follow-up of audit recommendations reported in Medium Term
Export Credit Program - Credit and Fraud Risk Management Business Process
Improvement (March 30, 2009, OIG-AR-09-04)


       Dear Jean:

        Thank yo u for the opportunity to review and comment on the status of
recommendati ons made in the audit report Medium Term Export Credit Program - Credit
and Fraud Risk Management Business Process Improvement (March 30, 2009, OJG-AR-
09-04).

        We are in agreement with the determination orthe status of the recommendations
reported in OIG-AR-09-04. As the follow-up evaluation report recognizes, the Bank has
made significant progress in addressing lhe findings made in the initial audit report. We
are pleased lhal four (4) of the eight (8) specific recommendations are closed and remain
committed to pursuing further actions in response to the remaining open items, in order to
address each of these findings no later than the end of FiscaJ Year 20 I O.

   •   Find ing #3: The Bank wi ll finalize an approach to regularizing the lender
       oversight function and, in particular the lender rating process, to include defining
       the role of the Credit Review and Compliance Division in this process.

   •   Finding #4: The Bank anticipates implementing a new pricing methodology,
       beginning in FY20 II and in accordance with the agreed OECD guidelines, which
       wi ll more appropriately "price-to-risk" medium-term transactions.

   •   Finding #6: The Bank wi ll execute in Jul y an organizational re-alignment that will
       furth er enhance and systematize the operational changes that have yielded
       material improvement in the processing time for medium-term transactions.

   •   Finding #7: Trade Finance Di vision will publish a Medium-term Strategic Plan no




                     8 11   VHl,MO:-"T   AVhl'R' L, N.\,«   WhSIIING'ru~.   D.C. 2057 1
       later than the end of Fiscal Year 20 IO.

        The Bank 's management team looks forward to continuing ( 0 work with the
Offi ce of the Inspector General on these c ritical issues in order to conti nue to improve
this important program.




J0:~,0
Executive Vi ce President an C e f Opcrating Offi cer


cc:
John McAdams, Sen ior Vice Presid en t, Export Finance
Kenneth Tinsley, Senior Vice President, Credit and Ri sk Management
John Simonson, Senior Vice Presiden t and Chjcf Financial Officer
Michael Cushing, Senior Vice President , Resource management
Jeffrey Abramso n, Vice President, Trade Finance
Fernanda Young, Chie f Information Officer
Walter Hill , Vice President, Credit Review and Co mpliance
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
